OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/WEST BANK
AND GAZA’S INFRASTRUCTURE
NEEDS PROGRAM I: SELECTED
WATER TASK ORDERS
AUDIT REPORT NO. 6-294-11-008-P
JUNE 30, 2011




CAIRO, EGYPT 

Office of Inspector General


June 30, 2011

MEMORANDUM

TO:       	          USAID/West Bank and Gaza Director, Michael T. Harvey

FROM: 	              Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:	            Audit of USAID/West/Bank and Gaza’s Infrastructure Needs Program I: Selected
                     Water Task Orders (Report Number 6-294-11-008-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft report and have included the comments in their
entirety in Appendix II.

The report includes five recommendations to USAID/West Bank and Gaza. Based on actions
taken by the mission and supporting documentation provided, management decisions have
been reached on Recommendations 1, 2, and 4. Please provide the Audit Performance and
Compliance Division of USAID’s Office of the Chief Financial Officer with evidence of final action
to close these outstanding recommendations.

Management decisions have not been reached on Recommendations 3 and 5. Management
decisions can be reached when USAID/West Bank and Gaza provides us with a firm plan of
action and target date for implementing these two recommendations. Please advise our office
within 30 days of the actions planned or taken to implement the outstanding recommendations.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1a Nady El-Etisalat Street Off Ellaselki Street
New Maadi
Cairo, Egypt
www.usaid.gov/oig
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings................................................................................................................. 6 


     Some Reported Results Were Not Reliable................................................................ 6 


     Indicators Were Not Designed to Measure Program Impact....................................... 8 


Evaluation of Management Comments....................................................................... 10 


Appendix I – Scope and Methodology ........................................................................ 12 


Appendix II – Management Comments ....................................................................... 14 

SUMMARY OF RESULTS

According to a U.N. publication, development experts have long recognized that improving
access to safe drinking water contributes to sustainable development. Improved water services
can save households time and money that they would have spent transporting water or buying it
from alternative providers. Other potential benefits include improved health and education
outcomes.1

In the West Bank and Gaza, Palestinians consume approximately 50 liters of water per day per
capita, about one-third of the worldwide target established by the World Health Organization.2
According to USAID/West Bank and Gaza, water infrastructure facilities are inadequate to meet
basic domestic and commercial needs across much of the West Bank and Gaza. The existing
infrastructure perpetuates poor and deteriorating public services and is a significant challenge to
economic growth and development. Water main breaks and pump failures occur frequently
because of badly deteriorated water and sewage systems.

To address these and other vital infrastructure needs, USAID/West Bank and Gaza launched
the Infrastructure Needs Program (INP) I in 2008, a program with authorized expenditures of
$300 million for construction activities—such as rehabilitation of roads, water systems, and
schools in the West Bank—and $58 million for a contract to provide engineering and
construction management services for the activities. Under the program, USAID/West Bank
and Gaza awarded indefinite quantity contracts to American Intercontinental Constructors (AIC),
APCO/Arcon, International Relief and Development, and Morganti to conduct these projects; the
mission awarded the management contract to MWH Americas. According to the fact sheet the
mission developed for the program, the goals of INP I are to:

•	 Provide essential infrastructure projects for a viable future Palestinian state.

•	 Provide critical support to ministries and agencies of the Palestinian Authority that focus on
   infrastructure operation and maintenance issues.

•	 Hire experienced personnel to join Palestinian firms and train local engineers and project
   managers on U.S. design, construction, and safety standards and protocols.

•	 Provide significant employment opportunities to Palestinian workers.

As of December 31, 2010, USAID/West Bank and Gaza had obligated $316,458,435 under the
program, including 44 construction task orders totaling $258,458,435 and $58,000,000 for the
management contract. Total expenditures as of December 31, 2010, were $220,804,975. The
total obligated amount includes $29,209,606 for three task orders that USAID/West Bank and
Gaza awarded to AIC to improve access to water for the residents of the Hebron, Bethlehem,
and Jerusalem governorates. The purpose of the projects under these task orders is to reduce
losses from aging water systems, construct and rehabilitate pipelines and reservoirs to improve


1
  David Le Blanc, “Providing water to the urban poor in developing countries: the role of tariffs and
subsidies,” Sustainable Development Innovation Briefs, Issue 4, U.N. Secretariat, October 2007.
2
  “An Analysis of the Economic Restrictions Confronting the West Bank and Gaza,” U.N. Office for the
Coordination of Humanitarian Affairs – Occupied Palestinian Territories Report, September 2008.

                                                                                                   1
the distribution of water supplies, and develop new water sources. As of December 31, 2010,
USAID/West Bank and Gaza had expended $13,471,317 under these task orders.

On September 29, 2008, USAID/West Bank and Gaza signed Task Order 9, the Nuba-Idna
Water System Project, with AIC, valued at $9,353,606. The purpose of this task order was to
construct and rehabilitate pipelines and reservoirs in the western Hebron Governorate. The
target completion date for the task order was August 16, 2009.

The mission also signed Task Orders 27 and 28 with AIC valued at $19,856,000, on September
29, 2009, and September 25, 2009, respectively. The purpose of these two task orders was to
rehabilitate seven well stations, six in the Bethlehem Governorate and one in the Jerusalem
Governorate. The target completion date for both task orders was November 8, 2010.

With most INP I projects completed or nearing completion, USAID/West Bank and Gaza
authorized a follow-on INP II program with estimated expenditures of $750 million for
construction activities. Recently, the mission awarded the construction management indefinite
quantity contract to Black & Veatch, with estimated expenditures of $150 million, and is currently
evaluating proposals from construction firms.

The Regional Inspector General/Cairo conducted this audit to determine whether Task Orders
9, 27, and 28 under USAID/West Bank and Gaza’s INP I were achieving the program’s main
goal: to provide essential water infrastructure projects for a viable future Palestinian state.

USAID/West Bank and Gaza has made substantial progress providing essential water
infrastructure projects in the western Hebron Governorate. AIC completed Task Order 9 on
time, benefiting 29,573 residents who are now able to use the new and rehabilitated pipelines
and reservoirs. However, delays in the implementation of Task Orders 27 and 28 have kept
Palestinians from realizing the full benefit of the projects, including an increased and more
constant water supply through the rehabilitation of seven of the water system’s pumping
stations. In addition, USAID/West Bank and Gaza faces challenges in assessing the impact
and effectiveness of these activities because reported results were not supported by sufficient
documentation and the program’s indicators were not designed to measure the impact of the
program effectively.

Under Task Order 9, AIC completed the planned construction of pipelines and reservoirs in the
western Hebron Governorate on time. Activities under this task order included the following:

•	 Construction of a new water reservoir in the village of Beit Aula to provide additional storage
   capacity.

•	 Rehabilitation of the reservoir in the village of Tarqumiya.

•	 Installation of a new transmission pipeline linking the water reservoirs in Nuba, Beit Aula,
   and Tarqumiya.

•	 Rehabilitation of the water distribution network in the village of Tarqumiya.

USAID/West Bank and Gaza approved an extension of 30 days to allow additional
complementary activities to be completed using the funds set aside in the contract for
contingencies that remained at the end of the implementation period. The primary


                                                                                                2
complementary activities included rehabilitation and paving of the roads leading to the two
reservoirs rehabilitated or constructed under the task order as well as to the Nuba reservoir,
which is part of the same water network.
Beneficiaries of the new and rehabilitated reservoirs and pipelines said that the infrastructure
has been beneficial to their communities. For example, one municipal engineer stated that the
rehabilitation of pipelines had reduced water loss due to leakage. Additionally, the system is
supplying more water to residents and reducing reliance on water that had been transported by
truck at five times the cost of the water provided by the Palestinian water system.

For Task Order 27, AIC did not complete activities to rehabilitate three well stations in the
southern half of the West Bank by the original completion date of November 8, 2010. The
estimated completion date was May 24, 2011, or 197 days after the original target completion
date. USAID determined that the majority of the 197 days of delays were outside the control of
the contractor, but concluded that some of the delays were the responsibility of the contractor.
The delays are described below:

•	 The most significant delays were attributable to two extensions granted by the mission to
   AIC resulting from working with ABB, the original vendor for the medium-voltage, variable-
   frequency drives—a key component that needed to be repaired at the four pumping stations
   under this task order. Because ABB requires Israeli military escort when it goes to the West
   Bank to perform these repairs, it must wait until the military is available to provide the escort.

•	 Another delay was attributable to problems that AIC’s subcontractor, Saqqa and Khoudary
   (SAK), encountered in procuring the column pipes for the pumping stations. Although one
   U.S. company supplying the pipes had informed SAK that it could provide the pipes, that
   company was not able to do so when the time came to place the order. The pipes had to be
   ordered from Germany and required a waiver of source and origin requirements in order to
   proceed.

•	 The other significant delay was the responsibility of AIC because of its delays in submitting
   paperwork at the beginning of the project to obtain needed waivers of source, origin, and
   nationality requirements and request donation numbers from the Government of Israel,
   which are necessary to transport the commodities into the West Bank.

For Task Order 28, AIC did not achieve the planned activities by the original completion date of
November 8, 2010. The estimated completion date was April 26, 2011, or 169 days after the
original target completion date. USAID determined that the majority of the 169 days of delays
were outside the control of the contractor, but concluded that some of the delays were the
responsibility of the contractor. The delays are described below:

•	 The most significant delay was attributable to problems that AIC’s subcontractor, SAK
   Contracting, encountered in procuring the column pipes for the pumping stations, which
   were the same problems as those in Task Order 27.

•	 Another delay resulted from unforeseen work required to repair the grounding systems for
   three of the pumping stations.

•	 An additional delay was attributable to problems meeting source and origin requirements in
   obtaining medium-voltage switchgears. AIC’s subcontractor, SAK, found that the
   switchgears were available from a U.S. supplier, but upon placing the order, it learned that

                                                                                                   3
   the manufacturer of the gears had shifted production to a facility in Canada, and thus the
   switchgears no longer met the origin requirements of the contract. As a result, AIC had to
   seek a waiver from USAID before it could continue with the procurement.

•	 Another delay was attributable to needed modifications to the medium-voltage switchgear
   controls that the construction engineer discovered during the commissioning of one station’s
   submersible pump.

•	 The other significant delay was the responsibility of AIC because of its delays in submitting
   paperwork at the beginning of the project to obtain needed waivers of source, origin, and
   nationality requirements and request donation numbers from the Government of Israel,
   which are necessary to transport the commodities into the West Bank.

During its implementation of INP I, USAID/West Bank and Gaza identified some vulnerabilities
in the design of the program that could have affected the program’s efficiency and sustainability.
For example, a considerable amount of classroom and on-the-job training is being provided to
West Bank Water Department personnel to ensure that they know how to operate and maintain
the equipment; however, high turnover among Water Department staff as well as a lack of funds
available for ongoing system maintenance could have resulted in systems not realizing their
entire useful life because of a lack of proper maintenance. Both AIC and SAK noted this
vulnerability, citing instances where the Palestinian Water Authority did not properly maintain
equipment at the pumping stations. When systems failed at one pumping station, staff took
parts from other pumping stations to perform the repairs. As a result, the network of pumping
stations was not able to function at full capacity.

To address this problem, the mission included capacity-building provisions in the recently issued
construction management contract for INP II. These provisions require the contractor to
implement activities to improve the capacity of the Palestinian Water Authority and the municipal
water offices to manage, operate, maintain, expand, and finance key infrastructure in order to
protect valuable infrastructure investments and reduce dependency on international donor
funding.

Another potential vulnerability that the mission identified was the practice of one U.S.-based
construction firm subcontracting 100 percent of the construction effort to a local firm. This
arrangement resulted in some inefficiency in the program, with the U.S.-based company adding
little value to the construction effort. To address the vulnerability, the request for proposals for
the INP II program included a provision prohibiting INP II construction contractors from acting as
intermediaries without contributing any value. U.S. contractors will not be able to subcontract
their contracts to local firms on a percentage basis or rely on local subcontractors to perform the
work completely.

Although USAID/West Bank and Gaza has made substantial progress through the three task
orders audited toward achieving the program’s main goal of providing essential infrastructure
projects for a viable future Palestinian state, delays in the implementation of two of the three
task orders audited have kept Palestinians from realizing the projects’ full benefit.

Moreover, the audit identified two weaknesses in program monitoring and evaluation:

•	 Some reported results were not reliable (page 6).
•	 Indicators were not designed to measure program impact (page 8).


                                                                                                  4
The audit recommends that USAID/West Bank and Gaza do the following to improve the
effectiveness of INP I and future programs:

1. 	Provide detailed definitions of all Infrastructure Needs Program indicators to all partners
    (page 7).

2. 	 Implement controls to ensure that indicator data reported under the Infrastructure Needs
     Program I and Infrastructure Needs Program II are accurate and reliable (page 7).

3. 	Verify and correct any errors in the reported results data for the Infrastructure Needs
    Program (page 7).

4. S
   	 trengthen results reporting to ensure that indicators are effective in measuring
   achievements for the Infrastructure Needs Program I and the Infrastructure Needs Program
   II (page 9).

5. 	 Prepare and approve performance management plans for all mission activity objectives in
     accordance with Automated Directives System 203.3.3 (page 9).

Detailed findings follow. Our evaluation of management comments is on page 10. The audit
scope and methodology are described in Appendix I (page 12), and management comments are
in Appendix II (page 14).




                                                                                             5
AUDIT FINDINGS 

Some Reported Results Were
Not Reliable
According to Performance Monitoring and Evaluation TIPS No. 7, “Preparing a Performance
Monitoring Plan,” a supplementary reference document for Automated Directives System (ADS)
Chapter 203, “Assessing and Learning,” each performance indicator needs a detailed definition.
Furthermore, an effective performance monitoring system needs to plan not only for the
collection of data but also for data analysis, reporting, review, and use. Additionally, ADS
203.3.4 states, “Performance indicators are used to observe progress and to measure actual
results compared to expected results. Performance indicators help answer how or if a
USAID Mission/Office or AO Team is progressing towards its objective(s).”

The initial INP approval documents highlighted the importance of generating employment, one
of the program’s goals, stating that “a cross-cutting component of this program will be to create
employment opportunities by using labor intensive techniques… [which] will, in addition, lead to
modest injections of money into the struggling Palestinian economy.” According to the indefinite
quantity contracts with AIC and MWH, the construction management contractor is responsible
for “general oversight of institutional capacity building and employment generation activities,”
and labor-intensive techniques will be used to create employment opportunities.

USAID/West Bank and Gaza designated MWH to enter all data into the mission’s results
tracking system. However, the results reporting system for INP I was weak, and some of the
reported data were inaccurate. Additionally, targets entered into the mission’s tracking system
for Employment days generated and Value of commodities/equipment delivered for Task
Order 9 match the actual amounts exactly, which implies that the targets were not established
ahead of time or were adjusted to equal the results reported. The mission could not explain why
amounts matched exactly. Reported data discrepancies under the three AIC task orders were
as follows:

•	 Temporary Job Days Generated Under Task Order 9. The original number reported by AIC
   and the number in the mission’s results tracking system do not match. USAID/West Bank
   and Gaza reported 11,594 job days generated for fiscal year (FY) 2009, whereas AIC’s final
   report for Task Order 9 reported 12,037. Furthermore, the amounts reported by AIC were
   not consistent with the amounts in the daily joint construction reports, which were the source
   of the reported number of days. As a result, AIC prepared a corrected summary of job days
   generated, which shows a total of 10,479 days. However, this total included 534
   employment days for two American employees of AIC, which should not have been
   included. As a result, the total number of job days generated should have been 9,945; thus,
   the original reported amount was overstated by 14 percent.

•	 Temporary Job Days Generated Under Task Orders 27 and 28. USAID/West Bank and
   Gaza reported a total of 1,312 days for Task Order 27 and 840 days for Task Order 28 for
   FY 2010. Neither the mission nor its contractors could explain where the reported numbers
   came from. AIC maintained daily employment logs that MWH could have used to generate
   this information, but AIC did not provide this information to MWH to be reported to the
   mission. Additionally, although USAID/West Bank and Gaza set up its results reporting

                                                                                               6
   system to report the number of job days by activity, neither AIC nor MWH maintained its
   data by activity. As a result, USAID/West Bank and Gaza reported all of the job days under
   only one of the four activities under Task Order 27 and one of the three activities under Task
   Order 28.

•	 Value of Commodities/Equipment Delivered Under Task Order 9. The reported FY 2009
   amount was $4,113,971, but the actual amount could not be determined because the
   indicator was not fully defined. The reported number came from a report provided to MWH
   by AIC. AIC was asked to report on this indicator but was not provided any guidance on
   methodology or told what to include in the calculation. Discussions with the AIC contract
   manager showed that he was not certain what to include and was not aware of the
   importance of the accuracy of the amounts. He said that some categories of commodities
   were not included and that some amounts included were estimates, whereas others
   included the labor associated with installing parts and not only the value of the parts.

USAID/West Bank and Gaza expected data in the results tracking system to be verified before
being entered. However, data verification did not occur and the partners' controls over reporting
and monitoring were weak, leading to inaccurate data. For example, MWH took the number of
employment days generated directly from monthly reports from contractors, which include
worker log days taken from joint daily reports completed on site. MWH did not verify these data
with AIC, and the AIC contract manager responsible for compiling the data was not aware that
these numbers mattered or needed to be accurate. Neither the mission nor MWH provided the
contract manager with a methodology for calculating them, nor did MWH or the mission ever
ask him to verify any of the numbers. The contracting officer’s technical representative
conducted a data quality assessment of INP, but the scope was limited and did not cover
indicators being tracked under the tested task orders, apart from the number of beneficiaries,
which was calculated based on Palestinian Authority census data rather than contractor data.

Although the mission’s Program and Project Development Office has worked with MWH on data
collection, staff turnover has resulted in gaps in the results reporting and verification system.
MWH staff members responsible for data reporting for the entire program were not aware of
their responsibility to verify the data before entering it into USAID/West Bank and Gaza’s results
reporting system. Because of the weaknesses in its data reporting, USAID/West Bank and
Gaza cannot rely on the reported results to track progress or report to USAID/Washington or
Congress. Nor can the mission rely on the data to make decisions regarding the program’s
achievement or future allocations of funds. Therefore, this audit makes the following
recommendations.

   Recommendation 1. We recommend that USAID/West Bank and Gaza provide
   detailed definitions of all Infrastructure Needs Program indicators in writing to all
   partners.

   Recommendation 2. We recommend that USAID/West Bank and Gaza develop and
   implement a plan with milestones to establish controls that require indicator data
   reported under the Infrastructure Needs Program I and Infrastructure Needs Program II
   to be accurate and reliable.

   Recommendation 3. We recommend that USAID/West Bank and Gaza verify and
   correct in writing any errors in the reported results data for the Infrastructure Needs
   Program.


                                                                                                7
Indicators Were Not Designed to
Measure Program Impact

Both implementers and USAID missions have a responsibility to set appropriate indicators and
targets and to review and assess their relevancy periodically. 31 U.S.C. 1115(a) requires,
among other things, that agencies prepare annual performance plans that “establish
performance indicators to be used in measuring or assessing the relevant outputs, service
levels, and outcomes of each program activity.” Additionally, ADS 203.3.2.2.b states, “USAID
Missions/Offices should use performance information to assess progress in achieving results
and to make management decisions.” Moreover, ADS 200.2, “Primary Responsibilities,” states
that USAID missions must develop the capacity to manage foreign assistance programs and
ensure that teams have the necessary expertise, authorities, resources, and support to achieve
their objective.

USAID/West Bank and Gaza was not tracking any INP impact indicators. For the three audited
task orders, the mission tracked only output indicators, such as length of pipelines and number
of pumping stations. These indicators do not effectively measure the extent to which the
activities are contributing to achieving the program’s main goal. Mission staff agreed that the
indicators were not capturing the program’s impact in a meaningful way.

The lack of impact indicators occurred because the mission developed its indicators to align with
the annual reporting requirements established by the Department of State’s Office of the
Director of U.S. Foreign Assistance. These reporting requirements focus on output indicators,
and as a result no impact indicators were identified for INP I. Although the mission could have
developed and tracked other indicators in addition to those in the Department of State’s results
reporting system, it did not do so for INP I.

In addition, USAID/West Bank and Gaza did not develop a performance management plan
(PMP) for the program, nor did it have PMPs for other programs and activities, as required by
ADS 203.3.3, which states: “[Assistance Objective] Teams must prepare a complete
Performance Management Plan (PMP) for each [Assistance Objective] for which they are
responsible.” The program office explained that its performance management of programs
relies on alternative methods, namely the operational plan. However, the operational plan does
not include everything required in a PMP, such as a schedule and method for data collection,
detailed indicator definitions, data quality assessment procedures, possible evaluation efforts, or
a calendar of performance management tasks. A well-constructed PMP could have helped the
mission develop appropriate indicators based on the mission’s and the program’s strategic
goals.

Without these indicators, USAID/West Bank and Gaza is unable to determine the overall impact
of the construction activities in terms of quality-of-life improvements for the Palestinian people.
Measuring program impact is especially important for a program such as INP I because of its
high level of funding and the fact that no midterm assessment of the program was made and no
other assessments were planned to examine the impact of the program.

To ensure that the mission has the quality data it needs to evaluate the impact of INP and that
other future mission programs are able to benefit from a robust performance management
system, the audit makes the following recommendations.



                                                                                                 8
Recommendation 4. We recommend that USAID/West Bank and Gaza strengthen
results reporting by requiring that program indicators be effective in measuring
achievements for the Infrastructure Needs Program I and the Infrastructure Needs
Program II.

Recommendation 5. We recommend that USAID/West Bank and Gaza prepare and
approve performance management plans for all mission activity objectives in accordance
with Automated Directives System 203.3.3.




                                                                                         9
EVALUATION OF MANAGEMENT
COMMENTS
USAID/West Bank and Gaza provided its written comments on our draft audit report, has begun
taking corrective action on three of the five recommendations in the draft report, and has
partially addressed one other recommendation. Based on the actions taken by the mission,
management decisions have been reached for three recommendations. Our evaluation of
management comments is shown below.

USAID/West Bank and Gaza has begun addressing Recommendation 1 to provide detailed
definitions of all indicators in writing to all partners. The mission expects to issue an updated
document with detailed definitions to all INP implementing partners before the end of August
2011. Accordingly, a management decision has been reached on this recommendation.

Regarding Recommendation 2, to develop and implement a plan with milestones to establish
controls that require indicator data reported under the Infrastructure Needs Program I and
Infrastructure Needs Program II to be accurate and reliable, USAID/West Bank and Gaza has
begun addressing the recommendation. In addition to updating the indicator definitions, as
described in Recommendation 1 above, the mission will conduct quarterly spot checks, starting
in October 2011. The mission’s architectural and engineering contractors MWH and Black &
Veatch will conduct quarterly spot checks of data, with the first one to be completed by
September 2011, in accordance with the mission’s newly established verification schedule for
INP. Accordingly, a management decision has been reached on this recommendation.

USAID/West Bank and Gaza’s response to Recommendation 3, to verify and correct in writing
any errors in the reported results data for INP, partially addresses our recommendation.
USAID/West Bank and Gaza will request that MWH submit a plan by the end of August 2011 for
the verification and correction of previously reported results data for the audited Infrastructure
Needs Program I Task Orders 9, 27, 28 and any other ongoing INP I task orders, with a
targeted completion of December 2011.

However, except for the three task orders covered by this audit, the mission’s response does
not discuss actions to be taken to correct errors in the reported data for INP I task orders that
have already been completed. Because the same implementer, MWH, was responsible for
reporting for all task orders under INP I, the reported data is susceptible to the same reporting
errors that occurred for the task orders we audited. Reviewing and correcting the data for all
INP I task orders will help ensure that the mission accurately reports the accomplishments of
INP I to external parties. This exercise will also provide the mission with more reliable results
data to be used in making decisions regarding future programming decisions. Accordingly, a
management decision has not been reached on Recommendation 3. A management decision
can be reached when the mission’s plan of action is expanded to include all task orders under
INP.

USAID/West Bank and Gaza agreed with Recommendation 4, to strengthen results reporting by
requiring that program indicators be effective in measuring achievements for the Infrastructure
Needs Program I and the Infrastructure Needs Program II. For INP I, the mission will issue the
updated document with detailed indicator definitions (as described in response to

                                                                                               10
Recommendation 1) to all INP implementing partners before the end of August 2011. The INP
II performance management plan, to be completed by the end of July 2011, will include both
output and impact indicators that measure both the short-term results and lasting effects
achieved through INP II activities. The PMP will also define the monitoring and evaluation plans
in detail, including the identification of data collection responsibilities, a data quality plan, and an
evaluation plan.        Accordingly, a management decision has been reached on this
recommendation.

The mission did not express agreement with the Recommendation 5, that USAID/West Bank
and Gaza prepare and approve PMPs for all mission activity objectives in accordance with
Automated Directives System 203.3.3. The mission stated that the Director of the Program and
Project Development Office would issue a reminder to contract and agreement officers’
technical representatives by the end of June 2011, outlining their responsibilities and
emphasizing the relevant sections of ADS 203 they should follow as they approve PMPs under
their respective awards. However, this action does not address the main issue: the mission did
not have PMPs that reflect the current mission programs and activities, as required by ADS
203.3.3: “[Assistance Objective] Teams must prepare a complete Performance Management
Plan (PMP) for each [Assistance Objective] for which they are responsible.” The reminder
would still have the mission relying on implementing partners to develop PMPs. Neither these
partner PMPs nor the operational plan covers everything required by ADS, particularly how the
mission will manage the implementing partner. Accordingly, a management decision has not
been reached on this recommendation.




                                                                                                     11
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo (RIG/Cairo) conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions in accordance with our audit objective. We
believe that the evidence obtained provides that reasonable basis. The purpose of this audit
was to determine whether Task Orders 9, 27, and 28 under USAID/West Bank and Gaza’s INP I
were achieving the program’s main goal: to provide essential infrastructure projects for a viable
future Palestinian state. Our audit examined 3 of the 44 construction task orders issued under
INP I as of December 31, 2010, as well as the management of the construction activities under
these task orders. No previous audits addressed the areas reviewed.

The scope of the audit covered reported results for FY 2009 for Task Order 9 and 2010 for Task
Orders 27 and 28. RIG/Cairo performed this audit at USAID/West Bank and Gaza between
January 27 and March 17, 2011. We met with the construction management contractor, MWH;
the construction contractor, AIC; and the construction subcontractor, SAK. We also conducted
site visits to the Municipality of Tarqumiya, to the new and rehabilitated water reservoirs in Beit
Aula and Tarqumiya in the Hebron Governorate, and to two of the seven pumping stations being
rehabilitated in the Bethlehem Governorate. In planning and performing the audit, we assessed
internal control related to documentation and data verification, reporting, supervisory and
management review, and review of performance measures and indicators.

During our site visits, we relied on USAID/West Bank and Gaza staff as translators to conduct
interviews in Arabic with local officials and beneficiaries.

Our audit covered disbursements as of December 31, 2010, for the three task orders audited,
totaling $13,471,317, out of total program disbursements of $220,804,975.

Methodology
To answer the audit objective, we first identified the program’s main goals and significant
program risks. We met with key personnel at USAID/West Bank and Gaza, MWH, AIC, and
SAK. We reviewed relevant documentation provided by USAID/West Bank and Gaza and the
contractors. We also reviewed the terms of the contract, the award process, and applicable
policies and procedures. We gained an understanding of the program design and how USAID
planned to monitor and measure the results for each task order.

We reviewed compliance by the mission and contractors with Executive Order 13224, “Blocking
Property and Prohibiting Transactions with Persons Who Commit, Threaten to Commit, or
Support Terrorism,” and with USAID/West Bank and Gaza Mission Order No. 21, “Anti-
Terrorism Procedures.” Our antiterrorism compliance testing included reviews of relevant
documentation such as USAID/West Bank and Gaza’s contracts with MWH and AIC, the
subcontract with SAK, and compliance reviews done by the Office of Contracts Management.
We also interviewed the USAID/West Bank and Gaza anti-terrorism vetting specialist.



                                                                                                12
                                                                                       Appendix I


To verify reported results, we reviewed the indicators being tracked in USAID/West Bank and
Gaza’s reporting system for the three task orders. We traced the reported results for the
indicators to the implementing partner’s relevant source documents for FY 2009 and FY 2010.
To verify the reported results for the number of job days created, we traced the reported number
back to a statistical sample of AIC’s daily reports and rejected the originally reported number of
job days created as inaccurate. We used this same methodology to conclude with 98 percent
confidence that a subsequently corrected summary of job days created submitted to us by AIC
was accurate.

We reviewed the definitions of the indicators and evaluated them to determine whether they
effectively measured the impact of program activities. We also interviewed the data tracking
specialist at USAID/West Bank and Gaza. To assess overall achievement, we interviewed staff
members to gain an understanding of reasons for both delays of the task orders and their critical
path analysis.

We visited a judgmental sample of four sites. We met with local government officials,
engineers, and beneficiaries to gain an understanding of whether the program was meeting their
needs and what their experiences had been while working with the contractors. On site, we
interviewed subcontractor employees and discussed the quality of the construction. Also during
site visits, we verified the existence of reported deliverables, verified that the project site
complied with USAID branding requirements, and observed and discussed the quality of the
construction and equipment.




                                                                                               13
                                                                                       Appendix II



MANAGEMENT COMMENTS 



UNCLASSIFIED


Date:          June 7, 2011

To:            Regional Inspector General, Cairo, Jacqueline Bell

From:          Mission Director, USAID West Bank and Gaza, Michael T. Harvey /s/

Through:       Deputy Mission Director, Sherry F. Carlin /s/

Subject:       Mission’s Comments on the Draft Performance Audit Report of Selected
               USAID/West Bank and Gaza Infrastructure Needs Program I Water Task Orders.

               Draft Audit Report No. 6-294-11-XXX-P dated May 13, 2011

Reference:     Bell/Harvey memorandum dated May 13, 2011


USAID West Bank and Gaza wishes to thank the Regional Inspector General/Cairo for
conducting the referenced performance audit on selected task orders under the Infrastructure
Needs Program I (INP I). The subject draft audit report has been thoroughly reviewed by the
Water Resources and Infrastructure office in collaboration with other offices of the Mission.

The Mission appreciates this opportunity to comment on the draft audit report and the five
recommendation therein as the RIG prepares the final report. The following are the Mission’s
comments on each of the five recommendations.

Recommendation No. 1:

We recommend that USAID/West Bank and Gaza provide detailed definitions of all
Infrastructure Needs Program indicators in writing to all partners.

Response: Detailed definitions of all Infrastructure Needs Program (INP) indicators exist in
writing in the Mission’s “Geo-MIS Standard Definitions for Monthly Activity-level Reporting”
document and are accessible to all INP implementing partners. Mission management has
recognized the need to further define the indicators, especially the two indicators which were the
focus of the draft audit report, “Temporary Job Days Generated” and the “Value of
Commodities/Equipment Delivered.” The Regional Inspector General’s (RIG/C) draft audit

                                                                                                14
                                                                                          Appendix II


findings indicate that American Intercontinental Constructors, LLC (AIC) was including
employment days for two American employees of AIC. This finding merits that the Mission
revisit the definitions document with all Infrastructure Needs Program implementation partners.
The Water Resources and Infrastructure Office (WRI), in partnership with the Program and
Project Development Office (PPD) and INP I implementing partners, already began the process
of revising the detailed definitions in late 2010. PPD has proposed certain standard indicators for
each type of infrastructure activity. These will better reflect the work we are doing. A revised
document has been prepared by PPD and discussed with WRI. It is currently being reviewed for
concurrence by MWH Americas, Inc. (MWH). An updated document is expected to be issued
by the end of July 2011. The updated document will be provided to all INP implementing
partners and discussed with them before the end of August 2011 to ensure that indicator data
reported under the INP are calculated in a consistent manner, yielding accurate and reliable
results.

Recommendation No. 2:

We recommend that USAID/West Bank and Gaza develop and implement a plan with milestones
to establish controls that require indicator data reported under the Infrastructure Needs Program I
and Infrastructure Needs Program II are accurate and reliable.

Response: Mission Management has already begun to develop and implement a plan with
milestones to establish controls that require and ensure that indicator data reported under the INP
I and INP II are accurate and reliable. WRI has been working on this plan from the time that the
initial draft of the RIG’s report was received in March 2011.

The first step in the plan is the updating of the indicator definitions and the standardization of the
methodologies for calculating data reported for all INP indicators, especially the two indicators
which were the focus of the draft audit report: “Temporary Job Days Generated” and the “Value
of Commodities/Equipment Delivered.”

As noted in the response to Recommendation No. 1, WRI has already begun the process of
revising and further detailing the indicator definitions in partnership with PPD and all INP
implementing partners. An updated “Geo-MIS Standard Definitions for Monthly Activity-level
Reporting” document will be issued by the end of July 2011.

By the end of August 2011, WRI and PPD will have met with each INP implementing partner
and all new INP II implementing partners to discuss the updated indicator definitions and
methodologies.

Controls over INP I data will be implemented primarily by the INP I Architecture and
Engineering (A&E) firm, MWH, through the end of September 2011. From October 2011 going
forward, controls will be implemented primarily by the INP II A&E firm, Black & Veatch
(B&V). Controls will take the form of a spot audit conducted by the A&E firm for all ongoing
activities under INP I and future activities under INP II to ensure that the indicator data received
by the A&E firm from the other INP I and INP II implementing partners conforms with the
updated calculation methodologies that are currently being designed to ensure data accuracy and


                                                                                                   15
                                                                                       Appendix II


reliability. These detailed definitions and calculation methodologies will be defined in the
updated “Geo-MIS Standard Definitions for Monthly Activity-level Reporting” document.
MWH will conduct the spot audits, document its audit findings and present them to MWH’s
COTR by the end of September 2011. An additional spot audit will be conducted by the A&E
firm by the end of March 2012, in conformance with the PMP which is currently under
development for the INP II. Additional spot audits will be conducted on a quarterly basis for
ongoing and future activities under INP I and INP II.

In addition, controls will also be implemented by all INP COTRs in conjunction with other WRI
staff. These controls will take the form of a spot audit of a sample of the respective INP A&E
firm’s audit findings and other randomly selected data to verify the accuracy and reliability of
INP data reported in the Geo-MIS system. The first spot audit will be completed by INP COTRs
by the end of October 2011. Additional spot audits will be conducted by INP COTRs on their
respectively assigned task orders on a quarterly basis for the duration of these task orders.

INP COTRs will ensure that future reporting is free from any errors in his/her respectively
assigned task orders. The respective INP COTR will conduct quarterly spot checks of the
accuracy and reliability of indicator data, and, if errors are encountered, will require the
implementing partner to correct any such errors and require the A&E firm to re-submit the
corrected activity report in the Geo-MIS system.

PPD’s Project Management Specialist M&E will issue a reminder to the WRI COTRs/AOTRs
concerning this matter. The reminder will refer COTRs/AOTRs to the relevant sections in their
respective COTR assignment letters where data quality responsibilities are identified.

Finally, WRI will work with the Office of Contracts Management (OCM) to ensure that indicator
data reporting and quality standards are fully defined in each newly issued INP task orders.

By implementing these control measures, Mission management is confident that indicator data
reported under the INP will be calculated in a consistent manner that yields accurate and reliable
results that are acceptable and satisfy the above recommendation as raised in the RIG’s draft
audit report.

Recommendation No. 3:

We recommend that USAID/West Bank and Gaza verify and correct in writing any errors in the
reported results data for the Infrastructure Needs Program.

Response: Reported results data for INP I Task Orders 9, 27, 28, and any other ongoing INP I
task orders will be verified and corrected in writing, based on the updated calculation
methodologies that are currently under development, as described previously. USAID will
make a request to MWH by the end of July 2011 (after the updated “Geo-MIS Standard
Definitions for Monthly Activity-level Reporting” is formally issued) to submit a plan by the end
of August, 2011 for the verification and correction of previously reported results data for Task
Orders 9, 27, 28 and any other ongoing INP I task orders, to be completed by the end of
December 2011.


                                                                                                16
                                                                                        Appendix II



Regarding future task orders, as outlined previously, strict control measures will be applied and
monitored stringently by all INP COTRs to ensure accurate and reliable indicator data reporting
for all ongoing activities under INP I and future activities under INP II. Controls will take the
form of a spot audit conducted by the A&E firm for all ongoing activities under INP I and future
activities under INP II to ensure that the indicator data received by the A&E firm from the other
INP I and INP II implementing partners conforms with the updated calculation methodologies
that are currently being designed to ensure data accuracy and reliability. An additional spot audit
will be conducted by the A&E firm by the end of March 2012, in conformance with the PMP
which is currently under development for the INP II. Additional spot audits will be conducted
on a quarterly basis for ongoing and future activities under INP I and INP II.

INP COTRs will ensure that future reporting is free from any errors in his/her respectively
assigned task orders. The respective INP COTR will conduct quarterly spot checks of the
accuracy and reliability of indicator data, and, if errors are encountered, will require the
implementing partner to correct any such errors and require the A&E firm to re-submit the
corrected activity report in the Geo-MIS system. Also, WRI will work with OCM to ensure that
indicator data reporting and quality standards are fully defined in each newly issued INP task
orders.

Recommendation No. 4:

We recommend that USAID/West Bank and Gaza strengthen results reporting by requiring that
program indicators are effective in measuring goal achievements for the Infrastructure Needs
Program I and the Infrastructure Needs Program II.

Response: Within the draft Audit Report provided, the RIG identifies the key to future
successful results reporting for the INP as (1) the use of both output and impact (outcome)
indicators and (2) the preparation and utilization of a performance management plan (PMP) for
INP, as well as for all other Mission activities. WRI agrees with the RIG recommendation and
will address both key items mentioned above.

For ongoing activities under the INP I, as mentioned in the previous responses, WRI has already
begun the process of revising and further detailing the indicator definitions in partnership with
PPD and all INP implementing partners. An updated “Geo-MIS Standard Definitions for
Monthly Activity-level Reporting” document will be issued by the end of July 2011. By the end
of August 2011, WRI and PPD will have met with each INP I implementing partner and all new
INP II implementing partners to discuss the updated indicator definitions and methodologies.
These revised indicators will ensure that the results reporting for all ongoing INP I activities
effectively measures the goal achievements of INP I.

For ongoing and future activities under INP II, a PMP is currently being prepared by B&V, in
collaboration with WRI and PPD, and will be finalized by the end of July 2011. The PMP will
include approximately ten indicators for INP II as a whole. These will include both output and
impact indicators that measure both the results and impacts achieved through INP II activities.
Indicators to be included in the PMP will be finalized by the end of July 2011. WRI will ensure


                                                                                                 17
                                                                                          Appendix II


that INP II indicators are of better quality and more thorough in effectively measuring the goals
and achievements of the INP.

In addition to program indicators, the PMP will also define the monitoring and evaluation plans
in detail, including the identification of data collection responsibilities, a data quality plan, and
an evaluation plan. Through this, the PMP will provide a clear method for accurately and
efficiently monitoring project results and impacts. Additionally, a final evaluation will occur at
the end of the INP II to examine the intended and unintended consequences of the program,
identify results achieved through INP II activities, and document lessons that can be shared
throughout the Agency to contribute to development learning and improve future programming.
This final evaluation will provide a clear picture of the overall impacts achieved through INP II.

Recommendation No. 5:

We recommend that USAID/West Bank and Gaza prepare and approve performance
management plans for all mission activity objectives in accordance with Automated
Directives System 203.3.3.

Response: The draft audit report makes a recommendation for all mission activity objectives
based on an audit of a single mission activity, the INP I program. Lack of an approved PMP at
the time of the audit is not indicative of a pervasive issue with PMPs throughout the mission’s
portfolio and the audit report should recognize that an audit sample of one is insufficient grounds
for such a broad, generalized recommendation.

Nevertheless, the Mission will take this opportunity to raise awareness among COTRs/AOTRs of
the need to ensure that PMPs are submitted in a timely manner, approved by the COTR/AOTR,
and uploaded onto the GEO-MIS system. The Director of the Program and Project Development
Office (PPDO) will issue a reminder to the Mission’s COTRs/AOTRs concerning this matter by
the end of June 2011, outlining their responsibilities and emphasizing the relevant sections of
ASDS 203 that should follow as they approve the PMPs under their respective awards.




                                                                                                   18
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
